No. 19-1060

 

 

In THE
Supreme Court of the United States

VICTOR THOMAS,

Petitioner,
v.

NEW YORK,
Respondent.

On Petition for Writ of Certiorari to the
New York Court of Appeals

MOTION FOR LEAVE TO FILE BRIEF AS
AMICUS CURIAE AND BRIEF OF THE
CATO INSTITUTE AS AMICUS CURIAE

IN SUPPORT OF THE PETITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
3,244 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 313 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 20, 2020.

 

Wilson-Epes Printing Co., Inc.
